gw
I
2311 Douglas Street CO KLE

Omaha, Nebraska 68102-1214 Le ga | Briefs
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No.

MICHAEL D. GOODWIN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7035 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : LY Qudrnaw ,
My Commission Expires Nov 24, 2020 ,

 

Notary Public Affiant

38785
